<html>
<title> - NOMINATION HEARING</title>
<body><pre>[Senate Hearing 115-606]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-606

                           NOMINATION HEARING

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION

                               __________

           NOMINATIONS OF RONALD D. VITIELLO, NOMINATED TO BE
            ASSISTANT SECRETARY FOR IMMIGRATION AND CUSTOMS
         ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY AND
       RICHARD S. TISCHNER, JR., NOMINATED TO BE DIRECTOR, COURT
     SERVICES AND OFFENDER SUPERVISION AGENCY, DISTRICT OF COLUMBIA

                               __________

                           NOVEMBER 15, 2018

       Available via the World Wide Web: http://www.govinfo.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                
                
	          U.S.GOVERNMENT PUBLISHING OFFICE    
	          
34-946 PDF             WASHINGTON : 2019





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California
JON KYL, Arizona                     DOUG JONES, Alabama

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
                    Daniel P. Lips, Policy Director
               Margaret E. Daum, Minority Staff Director
               J. Jackson Eaton, Minority Senior Counsel
                  Michael J. Broome, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk
                     
                     
                     
                     
                     

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     2
    Senator Hassan...............................................    11
    Senator Harris...............................................    16
    Senator Jones................................................    20
    Senator Daines...............................................    23
    Senator Carper...............................................    27
Prepared statements:
    Senator Johnson..............................................    31
    Senator Peters...............................................    32

                               WITNESSES
                      Thursday, November 15, 2018

Ronald D. Vitiello, Nominated to be Assistant Secretary for 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security
    Testimony....................................................     3
    Prepared statement...........................................    34
    Biographical and financial information.......................    36
    Letter from the Office of Government Ethics..................    52
    Responses to pre-hearing questions...........................    55
    Responses to supplemental questions..........................   117
    Responses to post-hearing questions..........................   125
    Letters......................................................   130
Richard S. Tischner, Jr., Nominated to be Director, Court 
  Services and Offender Supervision Agency, District of Columbia
    Testimony....................................................     5
    Prepared statement...........................................   162
    Biographical and financial information.......................   164
    Letter from the Office of Government Ethics..................   183
    Responses to pre-hearing questions...........................   186
    Responses to post-hearing questions..........................   200

                                APPENDIX

ICE Council Follow-up letter.....................................   153
ICE Local Presidents.............................................   156
Family Apprehensions chart submitted by Senator Johnson..........   201
UAC Apprehensions chart submitted by Senator Johnson.............   202
American Academy of Pediatrics Report............................   204

 
                           NOMINATION HEARING

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2018

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
342, Dirksen Senate Office Building, Hon. Ron Johnson 
presiding.
    Present: Senators Johnson, Daines, Carper, Peters, Hassan, 
Harris and Jones.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. Good morning. This hearing will come to 
order. I want to welcome our nominees. Thank you for your past 
service and your willingness to serve again in these important 
positions.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 31.
---------------------------------------------------------------------------
    Today we will consider President Trump's nominees to serve 
as Director of U.S. Immigration and Customs Enforcement (ICE). 
The Director is responsible for leading an organization of 
approximately 19,000 employees with a budget of more than $7.5 
billion. ICE is the lead Federal agency responsible for 
enforcing Federal laws related to immigration, border control, 
customs, and trade.
    In addition to enforcing our immigration laws, ICE has vast 
law enforcement responsibilities including investigating 
financial and cyber crimes as well as intellectual property and 
commercial fraud, human rights violations, weapons, narcotics, 
and human smuggling, transnational gang activity, and enforcing 
our export laws. These missions are critical for our Nation's 
economic and national security.
    President Trump has nominated a qualified and capable 
candidate to lead the agency. Ronald Vitiello currently serves 
as Immigration and Customs Enforcement Deputy Director and 
senior official performing the duties of the Director. Prior to 
this role, Mr. Vitiello served as Chief of the U.S. Border 
Patrol and the Acting Deputy Commissioner of U.S. Customs and 
Border Protection (CBP). He has over 30 years of experience in 
the Federal Government, including serving at the locations on 
both the Southern and Northern Borders, and recently received 
the President's Distinguished Executive Rank Award for an 
exemplary career of Federal service.
    I want to thank Mr. Vitiello for his previous service to 
this country and for his willingness to lead ICE. It is 
extremely unfortunate that in this political climate the 
dedicated employees of ICE face constant criticism, threats of 
violence, and calls from some Members of Congress to abolish 
such an important agency.
    Today we will also consider a nominee to be the Director of 
D.C. Court Services and Offender Supervision Agency (CSOSA). 
The Director is in charge of 490 staff members and a budget of 
$246 million. CSOSA is responsible for overseeing probationers 
and parolees as well as providing free trial services in D.C. 
CSOSA's mission is to enhance public safety, reduce recidivism, 
and promote accountability, inclusion, and success through the 
implementation of evidence-based practices in close 
collaboration with its criminal justice partners and the 
community. In fiscal year 2017 (FY), CSOSA's Community 
Supervision Program was responsible for working with 16,407 
pretrial offenders, probationers, and parolees.
    President Trump's nominee is dedicated to public service 
with a passion for public safety. Richard Tischner currently 
serves as Chief of the Superior Court Division in the United 
States Attorney's Office, a position he has held since 2011. 
Mr. Tischner has over 30 years of experience with the United 
States Attorney's Office, also serving as a Supervisory 
Assistant United States Attorney for approximately 20 years.
    I want to thank both nominees for being here today. I look 
forward to hearing your testimony.
    With that I will turn it over to our serving Ranking 
Member, Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Well, thank you, Mr. Chairman, and I want 
to start by thanking the nominees for their willingness to 
serve and for their lifetimes of public service as well. You 
have both spent over 30 years in service to your community and 
I want to thank you for that commitment.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appears in the 
Appendix on page 32.
---------------------------------------------------------------------------
    Mr. Vitiello, today we convene to consider your nomination 
to lead a critical team, responsible for enforcing our laws and 
promoting the safety and security of our homeland. As the 
Director of the Immigration and Customs Enforcement you will 
lead thousands of public servants who put their lives on the 
line and dedicate their lives to protect us every day. If 
confirmed, you will not only lead ICE but you will have to make 
some very tough decisions every day that prioritize ICE 
resources. You will set and implement policies that determine 
who to arrest, who to detain, and which investigations to 
pursue. It will be up to you to make sure that the safety of 
Americans does not take a back seat to talking points.
    As Congress and Members of this Committee, we have the 
important role of conducting oversight. We have a 
responsibility to ask hard questions and to ensure that each 
Federal agency is acting in accordance with the law and, most 
importantly, the best interest of the American people.
    If confirmed I hope that you too will ask those hard 
questions about how ICE is using resources to ensure the safety 
of all Americans. Moreover, if confirmed, you will be in charge 
of advocating priorities for your department. You will be where 
the buck stops for ensuring that national security and public 
safety come first, and I look forward to your testimony here 
today.
    Mr. Tischner, I look forward to hearing from you. The 
position that you have been nominated to is certainly a very 
important one, critical to protecting public safety and 
reducing recidivism here in the District of Columbia. If 
confirmed, you will be tasked, or taking on tremendously 
difficult tasks in addition to maintaining effective 
partnerships amid both Federal and local bureaucracy.
    CSOSA must tackle barriers to successful re-entry, drug 
addiction, mental health, affordable housing and job training, 
just to name a few of the challenges. These are some of the 
most profound challenges facing communities across the country 
today and they are only one piece of fulfilling your mission. I 
look forward to hearing from you about your plans to improve 
the performance and increase accountability as well.
    Thank you, gentlemen.
    Chairman Johnson. Thank you, Senator Peters. I would ask 
consent that we enter in the record six letters of support\1\ 
for Mr. Vitiello as well as a letter from the head of the 
unions and signed by a number of other union heads,\2\ local 
union heads, with some questions about the nominee. And I will 
ask Mr. Vitiello to respond to that during the question period.
---------------------------------------------------------------------------
    \1\ The letters of support referenced by Senator Johnson appears in 
the Appendix on page 130.
    \2\ The letters from the unions referenced by Senator Johnson 
appears in the Appendix on page 156.
---------------------------------------------------------------------------
    It is the tradition of this Committee to swear in 
witnesses, so if you will both stand and raise your right hand.
    Do you swear the testimony that you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Vitiello. I do.
    Mr. Tischner. I do.
    Chairman Johnson. Please be seated.
    I have introduced both nominees in my opening statement so 
we will just turn right to Mr. Vitiello for your testimony.

  TESTIMONY OF RONALD VITIELLO,\3\ NOMINATED TO BE ASSISTANT 
    SECRETARY FOR IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Vitiello. Thank you, Mr. Chairman, Ranking Member 
Peters, and distinguished Members of the Committee. Thank you 
for the opportunity to appear before you today. As a career law 
enforcement officer who has served the Nation for more than 30 
years, I am honored and humbled to be nominated by the 
President to be the Director of U.S. Immigration and Customs 
Enforcement. I also want to thank Secretary Nielsen for her 
support and confidence in me. I am blessed also to have the 
support of my wife, Nuri, and our children, Alexis and Ron Jr., 
who have supported me and I am grateful for their appearance 
here today, as well as all the sacrifices that they have made 
over my long career.
---------------------------------------------------------------------------
    \3\ The prepared statement of Mr. Vitiello appears in the Appendix 
on page 34.
---------------------------------------------------------------------------
    As the largest investigative branch within the Department 
of Homeland Security (DHS), ICE has a critically important 
mission, to protect public safety and national security by 
enforcing U.S. immigration and customs laws, whether it is 
combating the illegal drug trade, removing illegal aliens who 
are a threat to public safety, or protecting children from 
online predators.
    This is a mission I understand well after more than three 
decades of experience in the Border Patrol. In 1985, I started 
as an agent patrolling the front lines of our border, and I 
worked in the interior and on both the Northern and Southern 
Borders. Later, I took on greater leadership and policy roles 
as Chief of the Border Patrol, and most recently as acting 
Deputy Commissioner at U.S. Customs and Border Protection. 
Because of these experiences, I have a deep understanding of 
the laws and policies governing our immigration system and I am 
well prepared to lead ICE.
    My experience includes working to maintain professional 
standards and sustain morale while the Border Patrol 
experienced rapid growth. I helped lead efforts to improve 
training and strengthen accountability for the use of force, 
which resulted in a significant decrease in the use of force. 
Working with Congress, the Office of Personnel Management 
(OPM), and fellow senior leaders at CBP, we implemented a new 
pay and compensation statute that saved taxpayers more than 
$110 million in the first year of implementation and added 
operational capacity to the agency.
    Throughout my career in the Border Patrol, I worked closely 
with partners at ICE, which has a complex, but crucial role in 
our immigration system. My appreciation and understanding of 
the men and women who serve at ICE has only deepened since I 
became the Acting Director in June.
    Despite adverse conditions that would cripple many other 
workplaces, ICE employees carry out their important mission 
with integrity, courage and excellence. Since my start at ICE, 
I have made it a top priority to meet with front line personnel 
in the field and ensure that their voices are heard and 
supported.
    The work ICE does to uphold public safety, national 
security and the rule of law, both in the United States and 
around the world, is undeniable. During fiscal year 2018, for 
example, arrests of illegal aliens with criminal histories 
increased by 50 percent, and removals increased over 13 
percent. ICE seized nearly 900,000 pounds of narcotics, 
including more than 2,300 pounds of fentanyl, which is fueling 
the deadly opioid crisis. We identified and rescued more than 
850 children who were victims of child exploitation and over 
300 victims of human trafficking. We made 11,000 arrests of 
known or suspected gang members, including more than 2,000 
linked to MS-13, and removed nearly 6,000 gang members from the 
country.
    These successes, and the dedicated men and women who 
achieved them, are all too often drowned out or wrongly 
maligned by misleading rhetoric and misinformation in the 
public sphere. This kind of rhetoric needlessly escalates the 
risk in our operational environment, making an already 
challenging job more difficult and dangerous. It also harms the 
morale of our workforce, which is composed of people just like 
you who go to work each day to make the country and the 
communities they serve in safer.
    Like you, our employees are public servants. They should 
not be threatened with violence or targeted in their homes. 
They should not face interruptions to their lawful operations. 
They should not have to bear the burden of attacks motivated 
largely by political and policy disagreements.
    If confirmed, one of my highest priorities will be to 
better demonstrate to the public, Congress, and the media the 
importance and criticality of the mission to protect the 
homeland and improve public safety, and why our agency's 
existence should not be up for debate.
    Part of that effort is simply remembering why ICE was 
created in the first place. Following the attacks on September 
11, 2001, the 9/11 Commission identified critical gaps in our 
national security, including the need for stronger interior 
immigration enforcement and border security. To address those 
needs and to prevent future attacks on our homeland, our 
government stood up ICE and the Department of Homeland 
Security. Eliminating these threats and vulnerabilities through 
cooperative, effective enforcement is as important today as it 
was when the Commission's report was published.
    I believe Congress shares the goal of a strong border and 
an immigration system that has integrity. I look forward to 
working closely with this Committee to address this and the 
many other challenges our agency faces as we seek to ensure the 
continued security of the American people. I also appreciate 
the Committee's important oversight role, and I am committed to 
ensuring the agency remains accountable to Congress and the 
taxpayers.
    The men and women of ICE are among our Nation's finest and 
most hard-working public servants and it is a privilege to 
serve alongside them. I am grateful for them, their loved ones 
and the sacrifices they make in service to America. Should I be 
confirmed, it would be a tremendous honor to support them and 
advocate for them as they carry out this vital mission.
    Thank you, and I look forward to your questions.
    Chairman Johnson. Thank you, Mr. Vitiello. Mr. Tischner.

   TESTIMONY OF RICHARD S. TISCHNER, JR.,\1\ NOMINATED TO BE 
   DIRECTOR, COURT SERVICES AND OFFENDER SUPERVISION AGENCY, 
                      DISTRICT OF COLUMBIA

    Mr. Tischner. I thank you, Chairman Johnson, and Serving 
Ranking Member Peters and Members of the Committee. I am 
grateful for your holding this hearing today to consider my 
nomination. I am truly honored by the nomination and, if 
confirmed, I stand ready to work alongside other leaders in the 
District of Columbia criminal justice system to continue 
enhancing public safety in the Nation's capital. I wish to 
acknowledge, also, that a number of the CSOSA leadership are 
behind me today, and I thank them for being here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tischner appears in the Appendix 
on page 162.
---------------------------------------------------------------------------
    CSOSA plays a critical role in providing public safety, as 
you said, Senator Peters, for those who live, work, and visit 
the District of Columbia. It strives to reduce recidivism by 
promoting successful adjustment to supervision by probationers 
and those returning to the community after a period of 
incarceration. In those instances where individuals do 
reoffend, timely coordination, which includes communication, 
with criminal justice partners is key. If confirmed as 
Director, I look forward to working with the talented and 
dedicated professionals at CSOSA to achieve these goals.
    I would also be honored to continue my more than 30 years 
not only in public service but in the pursuit of public safety. 
As a career prosecutor, I have always done my best to fairly 
and effectively address violations of the law, to hold 
offenders accountable, and to attain justice for victims and 
the citizens of the District of Columbia.
    I am especially proud of my service as Chief of the DC 
Superior Court Division, where I am responsible for leading the 
U.S. Attorney's Office's largest division in the investigation 
and prosecution of most local crimes committed by adults in the 
District of Columbia. I am honored to work with hundreds of 
dedicated Assistant United States Attorneys, paralegals, and 
other staff members as we address a wide range of issues and 
offenses. These range from misdemeanor offenses that affect the 
quality of life in the District to complicated violent 
offenses, including sexual assaults and homicides.
    The Division handles between 17,000 and 20,000 cases on an 
annual basis and employs a problem-solving approach, rather 
than simply processing cases through the system. Under my 
leadership, it works closely with its law enforcement partners 
and the community to identify public safety issues and to craft 
pragmatic solutions.
    Having spent most of my career in the United States 
Attorney's Office working on strictly local criminal justice 
issues, I am keenly aware of the challenges faced by the 
entities obligated to provide public safety for this community. 
I have not only been a prosecutor in the traditional sense, but 
I have also worked as a community prosecutor where I was tasked 
with solving complicated, sometimes non-criminal problems and 
issues impacting residents and neighborhoods throughout the 
District of Columbia. Additionally, my service and 
participation in the DC Superior Court's drug court and mental 
health court has given me a broader perspective of the problems 
faced by those in the criminal justice system. Finally, my 
relationships with law enforcement, partner agencies, and the 
community will serve the citizens of the District of Columbia 
well if I am confirmed.
    I thank you again for the opportunity to appear before you 
today and for your continued support of public safety efforts 
in the District of Columbia. I also want to express my 
gratitude to the staff of this Committee for their work in 
considering my nomination, and I look forward to your 
questions.
    Chairman Johnson. Thank you, Mr. Tischner. I also want to 
welcome the family members here, and thank them for their 
support of the nominees. These are important positions, almost 
24/7, 365 days a year. These are serious responsibilities and 
there is a sacrifice on the part of family members as well, 
offering their support, so I want to thank them.
    There are three questions the Committee asks of every 
nominee for the record, so I will ask the questions and then 
just ask each of you to answer, give you me your response. 
First, is there anything you are aware of in your background 
that might present a conflict of interest with the duties of 
the office to which you have been nominated.
    Mr. Vitiello.
    Mr. Vitiello. No.
    Chairman Johnson. Mr. Tischner.
    Mr. Tischner. No.
    Chairman Johnson. Do you know of anything, personal or 
otherwise, that in any way would prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Vitiello.
    Mr. Vitiello. No.
    Chairman Johnson. Mr. Tischner.
    Mr. Tischner. No.
    Chairman Johnson. Do you agree, without reservation, to 
comply with any request or summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Mr. Vitiello.
    Mr. Vitiello. I do, Senator.
    Mr. Tischner. Yes.
    Chairman Johnson. OK. Thank you.
    Mr. Vitiello, let me first point out I really did 
appreciate, in your testimony, the fact that you highlighted 
that ICE identified and rescued more than 850 children, 300 
victims of human trafficking, you have made 11,000 arrests of 
known and suspected gang members, including 2,000 linked to MS-
13, removing nearly 16,000 gang members. That is an incredibly 
important part of your testimony that I wanted to highlight.
    I think you are also aware, because the Committee let you 
know and I think you have a copy of the letter sent by a number 
of union officials for the National ICE Council. I just wanted 
to give you an opportunity to quickly respond to that letter.
    Mr. Vitiello. Well, I am aware of the letter, obviously. I 
have--as the Acting Director, and if confirmed as the Director, 
will have a contractual obligation to work with the ICE Council 
on all manners that affect employees. I have spent quite a bit 
of time, in the short time I have been at ICE, since June, 
meeting with employees. I have several town halls--San Antonio, 
Harlingen, Richmond, the Fairfax team at Washington field 
office. I am very interested in what is driving morale, how I 
can improve and articulate on their behalf, in this setting, in 
the media, in public, amongst themselves, and so it is very 
important for me to understand where the employees are coming 
from.
    The union has--we share that mission in protecting the 
employees. And so I met with the president of the union, Chris 
Crane, in August, I think the second. We had a substantive 
discussion on the things that I think we can most do 
beneficially together, and I look forward to continuing that 
relationship and do productive things on behalf of the 
workforce.
    Chairman Johnson. OK. And again, I appreciate that kind of 
general response. What about some of the specific charges about 
potential retaliation, not allowing union members to regain 
full-time employment within ICE? And can you just respond to 
some of those, the tweet?
    Mr. Vitiello. It is very technical, that most of what is 
outlined in that letter happened before I became the Acting 
Director. And so there are a number of things I want to look 
into. There are a number of conversations that I want to have 
around it. As it relates to union officials, their role is to 
represent the workforce. They are paid by the government, 100 
percent of their time, to represent the union. They do that. 
Again, I have responsibilities to meet and adjudicate their 
issues. And so we will continue to keep the dialogue open and I 
look forward to working with them on specific things.
    I think the pay issue, as you helped us with, in my 
previous career with Border Patrol, is the thing that is the 
most urgent as it relates to that workforce. And Chris Crane, 
the president, has specific suggestions on how to get to where 
we need to be on that, and I look forward to a productive 
conversation around that.
    Chairman Johnson. Can you speak directly to the incident 
within--or the prolonged problem in the Portland ICE office?
    Mr. Vitiello. The Portland is an example--and again, that 
happened before I started. But Portland is an example where 
local authorities refusing to help or assist law enforcement 
officers in ICE. Protestors essentially took over the block 
around the Federal Building, tried to prevent people from 
leaving the building, and then prevented, over the days, our 
employees getting to work.
    And we did not have the sufficient--if local do not act in 
a situation like that, when you call 911 and the local police 
do not show up, what do you do? So that thing got out of hand 
very quickly because of the lack of response locally, and it 
took us a number of days, a week or two, to get the correct 
Federal forces on the ground, the Federal Protective Service 
(FPS). They are great partners and they did a great job for us 
there. But we had to amass forces to get back into the 
building, and then several weeks on the protest continued.
    And so our employees were subject to the protests and 
having to walk by that on their way to work every day. It was 
not something that we predicted. Since then, we have put steps 
in place to monitor social media and get better at, sort of 
protective intelligence as it relates to our spaces. There is a 
regular reporting regime. I get a report every day that talks 
about what threats are out there on the Internet, on social 
media, what we get from informants and other agencies.
    And so we have gotten better about our response, but what 
was critical at the time when it was needed was the local 
response that did not come. So we were behind the curve. The 
whole community was behind the curve until we got the resources 
there.
    Chairman Johnson. So the charge is that ICE leadership did 
not respond adequately, but again, just to get the timeline 
right, this began before you were installed as Acting?
    Mr. Vitiello. We did what we could with the contingency and 
a situation that we had not predicted before. We did not expect 
that the locals would not clear the streets and allow people to 
get in and out of the building, so it took us a while to do 
that.
    The leadership at Enforcement and Removal Operations (ERO), 
Nathalie Asher, went and visited the workforce twice. I 
contacted individual employees who were threatened physically 
and had damage done to their own home properties. I talked to 
them directly. The Secretary participated with me in a virtual 
teleconference on video with the entire Portland office.
    Chairman Johnson. You came in in the middle of this, right, 
and then you responded?
    Mr. Vitiello. Correct.
    Chairman Johnson. OK. That is all I have. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Mr. Vitiello, according to the Federal Bureau of 
Investigation (FBI), hate crimes in America have risen 17 
percent just last year alone. I believe this is three 
consecutive years in a row we have seen hate crimes increase in 
this country. And I think that is why it is imperative that 
certainly our immigrant community but minority communities all 
across this country have confidence in the U.S. Government and 
in our leaders, particularly in key positions, like the one 
that you have been nominated for.
    So my question is, are you familiar with a group, 
Federation for American Immigration Reform (FAIR)?
    Mr. Vitiello. Yes, I am aware of that group.
    Senator Peters. Are you also aware that the group is 
classified as a hate group by the Southern Poverty Law Center?
    Mr. Vitiello. I did not know that.
    Senator Peters. As somebody in your position, should you 
know groups that are classified as hate groups?
    Mr. Vitiello. Well, ICE does not have specific 
responsibility to prosecute those Federal crimes. Obviously, 
agents and officers swear an oath to the Constitution and 
uphold law, public safety, homeland security. Obviously, if we 
are referred cases for hate crime we would work with local 
authorities, the FBI, etc., to get those cases prosecuted.
    Senator Peters. Well, I asked that question because my 
understanding is that you attended a Federation for American 
Immigration reform group media event that was held. Is that 
correct, that you were at an event that they held?
    Mr. Vitiello. Correct. At a local hotel they sponsored an 
opportunity for local radio stations to come to D.C. and 
broadcast from this area, and I did a number of interviews with 
local stations about ICE's mission, about the employees, about 
our critical support to homeland security and local 
communities. I think I did three separate interviews in that 
setting.
    Senator Peters. So you were at their event. So you attended 
their event, but in that situation do you think you should do 
some background checking as to the organization and whether or 
not they are classified as a hate group before you show up?
    Mr. Vitiello. The opportunity that we were trying to avail 
ourselves of, in the press sense, was to talk to these local 
communities. There are a couple on the Northern Border. I think 
there was one in Ohio. It is people that are not familiar as it 
relates to what happens in Washington, what happens as it 
relates to border enforcement, border security and immigration 
enforcement. So it was an opportunity to reach into those 
communities in that setting.
    Senator Peters. Although it was supported by a group that 
is classified as a hate group. So would you, in the future, 
avoid those kinds of situations, if confirmed?
    Mr. Vitiello. Obviously having more information in a 
scenario like that would be better.
    Senator Peters. And you would commit to seeking that out 
prior to making public appearances?
    Mr. Vitiello. That we can add that to our protocols, yes, 
sir.
    Senator Peters. It is significant, I think.
    Also, words have consequences, as you know. Just a few 
weeks ago an individual sent over a dozen pipe bombs to 
political figures across the country, and in this 
hyperpartisan-charged political environment I certainly am a 
strong believer that anyone holding positions of responsibility 
need to lead by example, and they need to behave with civility 
and understand we need to be bringing this country together, 
not dividing this country.
    So my question for you is in response to a tweet from Mark 
Levin on September 12, 2012, you suggested that the Democratic 
Party should be renamed the Liberalcratic party or the 
Neoclanist party. What did you mean by that tweet?
    Mr. Vitiello. It was a mistake. I was trying to make a 
joke. I thought it was a direct message. I was not familiar 
with how the platform worked as it related to that. I did not 
mean to suggest that the party is somehow against American 
values, and I deeply regret that I did it. It was a momentary 
lapse of judgment and I apologize.
    Senator Peters. So you do not believe that that is 
appropriate language for a government official charged with 
significant responsibilities?
    Mr. Vitiello. It is important and I understand the gravity 
of it, but it was meant as a joke, it was not trollery. I was 
not trying to do anything other than make a joke, and again, I 
regret it.
    Senator Peters. So why is that funny to you, those terms, 
Neoclanist party?
    Mr. Vitiello. I do not remember. There was some context 
about the content on the show. I was trying to respond in that 
context. I do not remember exactly what the premise was. But 
again, I realize that it caused offense and I am sorry.
    Senator Peters. So you will commit to this Committee that 
you are not going to use that type of language going forward?
    Mr. Vitiello. I absolutely commit to that.
    Senator Peters. Acting Director Vitiello, you acknowledge 
being, I think, quote, ``involved in discussions and 
operational protocols regarding the Administration's most 
controversial immigration policy that led to family 
separations.''
    My question for you is why did not you or anyone recognize 
that family separations that would occur could cause a massive 
outcry from the public?
    Mr. Vitiello. It was not perceived in the moment. What we 
were trying to do, at CBP and in the Department, was not 
separate families but apply consequences as the Department of 
Justice (DOJ) leaned forward and offered up additional 
prosecutorial resources, the so-called zero tolerance policy. 
We tried to take advantage of that capacity.
    Since 2011, the Border Patrol has been tracking very 
closely--CBP has been tracking very closely the arrests that 
they make, the consequences, or the post-arrest activity that 
the government involves in, after each and every arrest. And 
what we saw, over time, was that if you prosecuted people where 
those capacities were available, or if you sent people for 
removal hearings and they actually got removed, that you would 
see less activity at the border. The recidivism rate went down 
after we started tracking this in 2011. And so when the Justice 
Department stepped up and said that they would do more 
prosecutions, we put instructions in place to take advantage of 
that.
    Senator Peters. But it was clear that families would be 
separated at that point.
    Mr. Vitiello. That would have been a consequence. I just 
have to tell you that in most of the venues, when we refer 
people for the Federal crime of illegal entry, when they go to 
court locally a lot of them only go for the hearing long enough 
to be out of our custody at CBP, out of custody for less than a 
day, and then they are returned to us. And so the separation 
was contemplated but it was never meant to be permanent, and in 
most cases people got back together with their families on the 
same day.
    Senator Peters. But in many cases that did not happen, and 
it certainly appears that there was not any planning done on 
how to reunite families as we went through that. It was, as I 
looked into this and with locations in Michigan as well, there 
was a significant lack of planning. Why was that the case?
    Mr. Vitiello. Well, we never contemplated having the 
systems work backward, right. So the reunification piece is a 
function of the Department of Health and Human Services (HHS). 
They have the care and custody of the children once they are 
out of CBP custody. And so there was a significant recognition 
that they were going to need more capacity. But nobody in the 
discussion that I was involved in were contemplating that these 
people would be separated forever.
    Senator Peters. So if not separated forever, this is a 
question that I have been trying to get answered by DHS 
officials, is that we know that children were separated. How 
long is too long for a child to be separated from their family?
    Mr. Vitiello. Well, we would like to be in a place where no 
one got separated, right, but separations occur when, in most 
cases, before zero tolerance, when the guardian or the parent 
is not suitable to be a parent. They have a violent history or 
they have other crimes that need to be addressed in Federal 
prosecution, and so that requires a separation.
    So, yes, we would like to be in a place where lots of 
people did not bring their kids to the border and try to cross 
illegally, but that is the situation we are faced with now.
    Senator Peters. I am out of time. Mr. Chairman.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman, and Senator 
Peters, and thank you to both of our nominees this morning. We 
are very grateful for your public service. We are grateful to 
your families for sharing that service with you, and we are 
grateful for your presence here today.
    Mr. Vitiello, I want to start by just thanking you for 
visiting with me in my office last month. We discussed many 
things, including New Hampshire's significant Indonesian 
community. As you know, many members of this community came to 
New Hampshire fleeing religious persecution against Christians 
in Indonesia. They have become members of the community. They 
have worked jobs and paid taxes. They have raised their 
families in the Seacoast area of New Hampshire.
    Now, after many years of them living in the country, ICE 
has prioritized them for deportation, a decision that could put 
their lives at risk if they return to a country where violence 
against religious minorities remains a really serious issue. 
During our meeting you committed to looking into this matter. 
Could you please tell me what the product of that review was, 
and whether, as Director of ICE, you would reconsider ICE's 
efforts to deport these members of the community?
    Mr. Vitiello. Thank you for that question. So we are in a 
situation where, in the past, people were made to believe that 
the immigration laws, or people that were subject to removal in 
the United States would not be arrested. I have done this job 
for a really long time.
    Senator Hassan. So let me just interrupt you because I have 
limited time. Did you do a review of that situation?
    Mr. Vitiello. Yes. We looked into it, and the situation 
involves people who had either final orders of removal, and 
have had their due process rights. They are not subject to 
relief under the asylum laws, as refugees from Indonesia, and 
so they are, in fact, removable. The direction that we got from 
the President early on in his tenure was that no classes of 
aliens would be exempt from immigration enforcement.
    Senator Hassan. So your answer to me is that even though 
these people have built lives in the United States, even though 
they sought asylum and they are in legitimate fear of religious 
persecution and violence should they return to their countries 
of origin, even though they are tax-paying, even though they 
have built businesses, even though their families are here, and 
even though there are many more people who are actually engaged 
in criminal behavior who ICE could be prosecuting, you all are 
going to continue to prioritize Granite Staters who have built 
lives in this country and sought justice from us?
    Mr. Vitiello. We are not going to prioritize people just 
because of where they are from or what scenario that we are 
having. We prioritize like we always have--threats to public 
safety----
    Senator Hassan. But you have not always, because these 
people relied on behavior and Statements from the U.S. 
Government that gave them the belief that they would be able to 
stay here and build families here and build lives here and 
become parts of the community. And they relied on those 
representations by the U.S. Government, whether they were 
technically correct under the law or not.
    The concept of justice does not lie just in technicalities. 
It lies in the way we treat people, and it lies in an 
observance of our core values. So I am trying to understand 
why, when there are people violating our core values in this 
country, without documentation or illegally, we are not 
prioritizing them and why we are prioritizing law-abiding 
Indonesians who have been living in our country as Americans 
for a long time.
    Mr. Vitiello. We are prioritizing threats to homeland 
security, threats to public safety, and those engaging in 
criminal activity, and are also in the country illegally.
    Senator Hassan. So you are telling me that you have done 
all that work and there is nobody else to go after who are more 
of a threat than these law-abiding people in my State?
    Mr. Vitiello. No. I can tell you that, as a country, as an 
agency, and as an individual, I recognize that sometimes the 
law does not do what we want it to do. We are a compassionate 
nation that is welcoming to immigrants. These people have gone 
through their constitutional due process rights and they are 
not subject to relief under the Immigration and Nationality Act 
(INA). And so when encountered by the immigration officer they 
are subject to arrest and removal.
    Senator Hassan. I am not going to stay on this subject 
because I have another one I want to cover, but I do want to 
say that I do not think that that is an accurate representation 
of what has happened in their case. It is not that people just 
happened upon them. They had been given reliances by the U.S. 
Government that they were in compliance and they could stay 
here. And they showed up for their regular check-in and all of 
a sudden the behavior at the U.S. Government changed toward 
them.
    So let us move on to another subject, because I want to 
follow up on something that Senator Peters was talking to you 
about, because also during our meeting we talked about 
indefinite detention of families and the policy of separating 
children from the families, and we specifically discussed the 
long-term mental health implications of both practices. At the 
end of that meeting I provided you with a copy of a report 
issued by the American Academy of Pediatrics (AAP) from March 
2017, that stated that detention, and this is a quote, ``can 
cause psychological trauma and induce long-term mental health 
risks for children.''
    And, Mr. Chairman, I would ask that a copy of that 
report,\1\ which I have with me, be entered into the record.
---------------------------------------------------------------------------
    \1\ The report referenced by Senator Hassan appears in the Appendix 
on page 204.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Hassan. Thank you. So I asked, in our meeting, that 
you read the report, and you promised you would. So do you 
agree with the findings from our pediatricians that detention 
can cause long-term mental health problems for children?
    Mr. Vitiello. I thank you for providing the report. I did 
read it thoroughly and I understand the American Pediatrics 
Association's comments and direction and the import of the 
report. I understand what it means.
    I would like--like I said earlier--that we were not in a 
situation where large numbers of families with children are 
approaching the border. That is not the situation that we are 
in.
    Senator Hassan. You, then, are accepting the findings of 
the American Academy of Pediatrics, that detention results in 
long-term psychological harm to children. Is that correct?
    Mr. Vitiello. I think any time a parent breaks the law and 
their family suffers for it----
    Senator Hassan. That is not my question. Earlier, in 
response to Senator Peters, you referred to children as if they 
were tools to impose consequences on their parents. They are 
not. They are children.
    Mr. Vitiello. That is not the premise that I talked----
    Senator Hassan. Well then, you should----
    Mr. Vitiello [continuing]. I talked about consequences----
    Senator Hassan [continuing]. Clarify your remarks. What I 
am asking you now is will you accept the findings of 
pediatricians in the United States of America (USA) that 
detaining children provides long-term psychological harm to 
those children? Yes or no.
    Mr. Vitiello. I understand the report, yes.
    Senator Hassan. OK. So one of the most basic qualifications 
we ask of nominees is that they use their judgment to the best 
of their ability to protect our core American values. So could 
you please tell me how you are going to advocate so that 
children will not be detained and children will not be 
separated from their families?
    Mr. Vitiello. Well, luckily, the President stopped the 
zero-tolerance implementation as it related to families, so any 
family that comes into custody at ICE, referred from CBP or 
from other means, are either kept together or they are released 
on alternatives to detention.
    Senator Hassan. And what I would like to understand, as 
well, is what the alternatives to detention are. I would like a 
commitment that you all will stop pursuing permission to detain 
children and to change the Flores settlement, and that you will 
stand up for American values, which says we do not bully 
children.
    Mr. Vitiello. Again, I would like to be in a place where 
large numbers of people were not bringing their children to the 
border, or sending their children to the border----
    Senator Hassan. We are the United States of America. You 
did a very excellent job in your testimony of standing up for 
the men and women who work for ICE. And I have visited with 
them. I have visited with our Border Patrol officials who are 
wonderful public servants. And here is the thing. We have the 
capacity, in the United States of America, to control our 
borders without harming children. That is something that I am 
quite confident we can do.
    So what I would like to do is move from a situation where 
you and some of your colleagues are trying to defend what 
happened, or trying to talk about the difficulty of families on 
the border as an excuse, and I would like you to start moving 
forward for solutions that protect children while securing our 
borders. Both are possible. Because we are the United States. 
We do hard things.
    Mr. Vitiello. I agree----
    Senator Hassan. So do you commit to working with us to do 
that?
    Mr. Vitiello. I will work with this Committee on changes in 
the law that allow us to enforce the border and have an 
immigration system that has integrity, and I appreciate your 
advocacy for the ICE workforce.
    Senator Hassan. Thank you.
    Chairman Johnson. Thank you, Senator Hassan.
    Senator Hassan. Thank you for letting me go over, Mr. 
Chairman.
    Chairman Johnson. Before we move on, if you would put up 
the blue chart.\1\ I think we need a little history lesson 
here, because, again, what ICE does is they enforce the laws 
that we have allowed this reality to blossom. But back in 2012, 
11,116 individuals came to this country illegally, as a family 
unit, and in 2013, 15,056. And then kind of following the 
pattern with unaccompanied children (UAC), which, again, I put 
up the other chart\2\ and we are not going to do it, but 
followed after President Obama's Deferred Action for Childhood 
Arrivals (DACA) declaration, you had 68,684 in 2014.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 201.
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 202.
---------------------------------------------------------------------------
    Now the Obama Administration found that quite troubling and 
so they instituted a policy of detaining those family units, 
which led to a lawsuit, which led to the re-interpretation of 
the Flores settlement, which included the fact that--by the 
way, I agree with Secretary Jeh Johnson, that it was never 
contemplated that the Flores decision included children 
accompanied by their parents. But all of a sudden the re-
interpretation said no, you cannot detain a child, even with a 
parent unit.
    So in order to enforce our law, and not engage in total 
catch-and-release, which is what ended up happening, you were 
really forced into a family separation. It is what we are 
trying to fix with the Families Act, OK, trying to work in good 
faith.
    I just wanted to continue to go on with what has happened 
since then. So detention with families intact, under the Obama 
Administration, actually had an effect. It went from 68,000 
down to 40,000. After the Flores interpretation--in 2016, the 
number of people coming here as family units--because they 
realized now we can get here, they catch us, they release us, 
and we get to stay--77,857. In 2017, it is 75,802. Last year it 
was 107,202 individuals. I mean, are you seeing a pattern here? 
Last month, in October, 23,121 individuals came to this country 
illegally--they were apprehended--coming as a family unit.
    Now I do not think anybody projects that the level is going 
to stay after 12 months, but if it were that would be 276,000 
people.
    So we have a problem on our hands, and ICE has a 
significant problem, but they are trying to enforce the laws as 
they are currently interpreted by the courts. That is what we 
have to fix.
    So again, I am just trying to lay out that reality, and 
this is about a nomination hearing of somebody who has served 
both the CBP and now with ICE, trying to enforce the law. But 
we need to change the law. As General John Kelly, in his 
nomination hearing said, or maybe potentially as Secretary, is 
we have to have the courage and skill to actually change the 
law.
    Senator Hassan. And, Mr. Chair, I appreciate that very 
much. However, my suggestion is we have heard a lot of 
testimony about ways we could change our practices and law that 
would tighten up our border, would have people appear for their 
hearings. We need more lawyers, we need more alternative to 
detention, and we need more judges.
    Chairman Johnson. And we are working on that.
    Senator Hassan. But we do not need to detain children or 
separate them from their families in order to be secure. And it 
concerns me greatly that the greatest country on Earth is not 
standing up for children wherever they are.
    Chairman Johnson. Again, nobody wants to separate families. 
I think we have kind of established that as one of our goals. 
But, Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you, Mr. Chairman, and I would like 
to emphasize, to your point, this is a hearing to determine who 
will be the next head of ICE, and so this is about reviewing 
the prospective, the qualifications, and the experience of the 
nominee.
    So that being said, I think, Mr. Vitiello would you agree, 
as a member of law enforcement, that law enforcement, generally 
speaking, and certainly would be the case with ICE officers and 
agents, that a great deal of your power is discretionary. You 
have limited resources and you make decisions about what you 
are going to do, but you exercise a great deal of discretion, 
in terms of how you are going to use the limited resources and 
how you are going to prioritize them.
    And then understanding that, I think you would also agree 
that one's perspective, and their bias, if they have bias, will 
influence their exercise of discretion, in terms of the power 
they have and how it will be used and implemented.
    So I want to return to the question that Senator Peters 
asked you, about the statement you made describing the 
Democratic Party as Liberalcratic or Neoclanist, which was--I 
think the assumption there was that you were comparing it to 
the Ku Klux Klan (KKK).
    So you said, in response to his question, you are sorry 
because the words caused offense. So would not be sorry if no 
one was offended by your words?
    Mr. Vitiello. No. It was wrong to do.
    Senator Harris. Why was it wrong?
    Mr. Vitiello. Because those are offensive words.
    Senator Harris. Why are they offensive?
    Mr. Vitiello. Because they have history in this country, 
and I honestly did not mean it that way.
    Senator Harris. But please talk about the history. What is 
the history that would then make those words wrong?
    Mr. Vitiello. Well, the Klan was what we would call today a 
domestic terrorist group.
    Senator Harris. Why? Why would we call them a domestic 
terrorist group?
    Mr. Vitiello. Because they tried to use fear and force to 
change the political environment.
    Senator Harris. And what was the motivation for the use of 
fear and force?
    Mr. Vitiello. It was based on race and ethnicity.
    Senator Harris. Right. Are you aware of the perception of 
many about how the power and the discretion at ICE is being 
used to enforce the laws, and do you see any parallels?
    Mr. Vitiello. I do not see any parallels between----
    Senator Harris. I am talking about perceptions----
    Mr. Vitiello [continuing]. Officers and agents.
    Senator Harris. I am talking about perception.
    Mr. Vitiello. I do not see a parallel between what is 
constitutionally mandated, as it relates to enforcing the law--
--
    Senator Harris. Are you aware that there is a perception--
--
    Mr. Vitiello. I see no perception----
    Senator Harris [continuing]. Are you aware that there is a 
perception----
    Mr. Vitiello [continuing]. That puts ICE in the same 
category as the KKK. Is that what you are asking me?
    Senator Harris. No. I am very specific about what I am 
asking you. Are you aware of a perception that the way that the 
discretion----
    Mr. Vitiello. I see no parallel.
    Senator Harris. I am not finished.
    Mr. Vitiello. I see none.
    Senator Harris. I am not finished. Are you aware that there 
is a perception that ICE is administering its power in a way 
that is causing fear and intimidation, particularly among 
immigrants, and specifically among immigrants coming from 
Mexico and Central America? Are you aware of that perception?
    Mr. Vitiello. I do not see a parallel between the power and 
the authority that ICE has to do its job, and the agents and 
officers who do it professionally and excellently with lots of 
compassion.
    Senator Harris. Sir, how can you be the head of an agency 
and be unaware of how your agency is perceived by certain 
communities?
    Mr. Vitiello. There are a lot of perceptions in the media 
and in the public that are incorrect, about the agency----
    Senator Harris. But the perception----
    Mr. Vitiello [continuing]. And what it does.
    Senator Harris [continuing]. Exists. Would you agree, 
whether or not it is correct, and would you not agree then that 
if that perception exists there might need to be some work done 
to correct the perception?
    Mr. Vitiello. I do want to advocate for the workforce, the 
vital public safety mission that they have to protect the 
homeland. And I think more people need to know how valuable 
they are to the society. So I agree with you on that.
    Senator Harris. So I understand your point that you want to 
defend the honor of the good men and women who work in the 
agency, and I appreciate that point, and I know the vast 
majority of the men and women who work in the agency do a noble 
and good job. I am not talking about that. I am talking about 
the perception.
    And it seems to me that you would understand that when you 
use words such as the words you used only three short years 
ago, that that would contribute to that perception, and it is 
harmful then. It is harmful, in terms of the mission of the 
agency and the work of the individuals there, and it is harmful 
in terms of leading those who are innocent people, arriving at 
our border, fleeing harm. It is harmful to them if they feel 
they will not be treated by the U.S. Government with dignity 
and fairness. Do you see that?
    Mr. Vitiello. I agree that all of the people that we 
encounter deserve fairness, dignity, and respect in the 
encounters with our agents and our officers.
    Senator Harris. OK. In August there was a complaint filed 
with DHS, and the complaint alleges verbal and physical 
threats, insults, denial of food, and withholding of feminine 
hygiene products from parents, and these are the parents that 
were separated from their children, and also were about to be. 
And these parents were also falsely told that their children 
would be permanently taken from them.
    Following a hearing on September 18, before this Committee, 
I submitted questions for the record to your Associate 
Director, asking about these allegations. I have not received a 
response. So I am going to ask you, one, I am assuming you are 
aware of the allegations, and I want to know what action have 
you taken then to investigate the veracity of these 
allegations?
    Mr. Vitiello. I do not have the specifics on your request. 
I know that if you sent a letter to the office, on the deputy's 
testimony, that we are going to put that back for you on the 
record. I can commit to you that the oversight role that ICE 
has with our detention centers and what all happens when people 
are in custody is something that I watch very closely.
    Senator Harris. My question is very specific. Are you aware 
of these allegations and, if so, what action have you taken, as 
the Acting Director, to investigate the veracity of these 
complaints?
    Mr. Vitiello. In this specific case I do not have chapter 
and verse for you. What I can tell you is that there----
    Senator Harris. Do you have any information about what you 
have ordered to do in the agency to determine whether these 
allegations, which are serious on their face are, in fact, 
true?
    Mr. Vitiello. There is a specific protocol when allegations 
like this come to life through the DHS Office of Inspector 
General (OIG). We have Office of Professional Responsibility 
(OPR)----
    Senator Harris. So what did you do? What did you do, to 
follow up on these allegations? My question is about you.
    Mr. Vitiello. I can make sure that this allegation is 
followed up through the protocols----
    Senator Harris. So you have not done that yet.
    Mr. Vitiello. On this specific case I do not know the 
specifics of this case. I am happy to get more specifics with 
you and make sure that it is followed up in a way that is 
meaningful----
    Senator Harris. Thank you.
    Mr. Vitiello [continuing]. Using the resources that ICE 
has.
    Chairman Johnson. Senator Jones, Senator Hassan has asked 
to ask one last question. Would you yield to her?
    Senator Jones. I would consider that.
    Chairman Johnson. I do not believe we will have a second 
round. That is why--OK.
    Senator Hassan. Thank you very much for yielding, Senator 
Jones, and thank you, Mr. Chair, for that courtesy.
    Mr. Vitiello, we also talked, in my office, about the role 
of the Homeland Security Investigations (HSI) division of ICE. 
HSI is not part of ICE's detention and deportation force, and 
HSI actually has little to do with immigration. HSI is a 
Federal law enforcement branch that investigates and seeks to 
stop drug traffickers, arms traffickers, human smugglers, 
transnational gangs, and terrorist organizations. It is 
obviously a key counterterrorism and national security entity, 
and we have to ensure that HSI is well supported in order to 
keep all Americans safe.
    Last June, 19 special agents in charge of HSI field offices 
sent a letter to Secretary Nielsen asking that HSI be split out 
from ICE. They reason that their missions have been made more 
difficult by the public backlash against ICE's deportation 
force and because DHS and ICE have consistently taken money 
from HSI's budget to pay for the detention and deportation 
force at ICE.
    So I have two parts to this question. Have you, or will you 
take money from HSI and undermine their counterterrorism and 
national security capability in order to provide additional 
funding to ICE's deportation force?
    Mr. Vitiello. So I appreciate the question. We would never 
take money from one part of the organization to another if it 
meant an increased risk to national security.
    Senator Hassan. So is it acceptable or not acceptable to 
take money from HSI to the ICE deportation force?
    Mr. Vitiello. It is a big agency. It is a lot of taxpayer 
dollars. It is $7 billion. And when you run a big agency--when 
I was at CBP, the Border Patrol budget was like $3.4 billion. 
You have to fund what is necessary. You have to meet the 
obligations that we have. You do so in a risk-based way, and we 
would do the same at ICE going forward.
    I would love to be in a place where the appropriation was 
adequate to cover all the needs and the mandatory authorities 
that we have to exercise. In every enterprise, you have to make 
choices and you have to weigh the risks----
    Senator Hassan. I do understand that. Please understand 
that there are those of us that think that the agency is not 
making appropriate risk-based judgments when we look at the HSI 
concerns expressed in any number of ways. So I would look 
forward to continuing that conversation.
    The other part of this is going back to the letter that the 
19 senior members of HSI wrote. Will you consider moving HSI 
out of ICE and making it its own operational component, 
separate from the immigration missions of ICE?
    Mr. Vitiello. I have read the letter. I considered the idea 
and I do not think that we should take any steps in that 
direction. I think what HSI brings to the table, in money 
laundering, complex narcotics investigations, their work 
against MS-13, relies on the agency's complete resources and 
their authorities under Title 8 to prosecute MS-13 gang 
members, to clean up communities like we did in Long Island, 
and having those two complementary missions side by side is 
better for America than it is not.
    Senator Hassan. I thank you for the answer. I think there 
is a way of integrating those missions while still making sure 
that people understand HSI can be trusted within the community 
so that they can do their law enforcement.
    Mr. Vitiello. I agree with you and the Special Agents in 
Charge (SACs) that jurisdictions should not be reluctant to 
work with the law enforcement agency that is constituted to 
protect the homeland.
    Senator Hassan. Thank you, and thank you, Mr. Chair, for 
your courtesy, and Senator Jones.
    Chairman Johnson. Senator Jones.

               OPENING STATEMENT OF SENATOR JONES

    Senator Jones. Thank you, Mr. Chairman. Thanks to both of 
you.
    Mr. Tischner, you are kind of lost in this shuffle today.
    Mr. Tischner. I am here.
    Senator Jones. Yes. I wanted to make sure you were still 
awake.
    Chairman Johnson. Do not feel left out, though.
    Senator Jones. I really do not have a question, candidly, 
but I just want to congratulate you on a very distinguished 
career.
    Mr. Tischner. Thank you, Senator.
    Senator Jones. Seriously, I am a former Assistant United 
States Attorney, a former U.S. Attorney. I have worked with a 
number of your former bosses, who I have great respect for, on 
both sides of the aisle, in various administrations. So I want 
to just congratulate you on that and thank you for your service 
and willingness to serve in this new capacity, and to make sure 
you were awake during this hearing.
    Mr. Tischner. Thank you, Senator. I am quite awake.
    Senator Jones. Thank you. I appreciate it very much.
    Mr. Vitiello, I have a couple of questions. I have heard a 
lot recently. You have done a lot of work in this field on the 
border, through various administrations, and now moving over to 
ICE. And I have heard a lot lately, and I have just got a kind 
of initially a simple question.
    I assume, in your various capacities, you have had 
discussions with Members of Congress over the years, on both 
sides of the aisle. Would that be fair?
    Mr. Vitiello. Yes, that is true.
    Senator Jones. Have you ever heard anyone, on either side 
of the aisle, Republican or Democrat, who has said, ``Well, 
sir, I want to let you know I am for open borders''? Has anyone 
ever said that to you?
    Mr. Vitiello. Not to me, no.
    Senator Jones. Did you ever get the sense, when you talked 
to somebody, that they are, in fact, for open borders?
    Mr. Vitiello. Not in this setting?
    Senator Jones. All right. So I guess one of the things I 
want to make sure we understand is that everyone is wanting 
secure borders. We may have different agreements, different 
views on how to get there. But there is no one, despite what we 
have heard in this political kind of world, that no one is for 
open borders. We want a secure border.
    Now I do want to go back a little bit to what Senator 
Harris was talking about, and it kind of plays into this, and 
that is, I come from a State in which words had serious 
consequences. And I think this is where Senator Harris was 
certainly going.
    Perceptions can become realities for so many people out 
there. When we hear certain words and we call certain people 
enemies, we create a culture of fear of people who are just 
seeking a better life, who are barefoot and poor and trying to 
get away from a very difficult situation.
    And I want to make sure that, as a member of ICE, that you 
are going to commit to help tone down the rhetoric that we see 
in our immigration debate, because I do not think it is 
healthy. In fact, I think it is incredibly destructive. And as 
we have seen, it can be very dangerous. We have seen things 
recently where 11 people were killed in a Jewish synagogue, 
where explosive devices were sent to prominent members who 
opposed the administration, that words have consequences.
    And I would just like to make sure, especially given 
comments that you acknowledge were inappropriate, and a 
mistake, I would like for you to just talk a little bit about 
that and a commitment from you that you will do what you can, 
if you are confirmed as the head of ICE, to help make sure that 
the rhetoric is toned down and that you, as an agency head, and 
your directives--all of those that work for you--understand 
that the perception can be reality sometimes. And I can attest 
to you there are four little girls that were murdered in 
Birmingham in a bomb blast, that were a direct result of a 
Governor and a police commissioner's words that empowered 
people to do bad things. So I really need that commitment from 
you.
    Mr. Vitiello. I am committed to working with this 
Committee, working with the larger legislative branch so that 
the people in the media understand how vital the workforce is, 
and I am absolutely committed to doing it in a professional and 
respectful way.
    Senator Jones. All right. So that really did not answer my 
question, sir. I really am troubled by the answer, because you 
do not need to work with this Committee. You do not hear any of 
this rhetoric coming out of this Committee. You hear it coming 
out of the administration, and it does it in a political 
context. I want you to make sure that you stand up and do the 
right thing, and say, ``Wait a minute. This is not who we 
are.'' That is the commitment I am asking from you, sir.
    You do not need to work with this Committee. This Committee 
is all on board with trying to make sure we keep things in a 
certain level. I want you to work with the folks above you. I 
want you to work with the Secretary or the President or the 
Vice President, whoever it might be. Can I get that commitment 
that you will, even if it is behind closed doors and not 
necessarily public, can I get a commitment to stand up to just 
simply do the right thing and to tell people that they need to 
be careful with what they say?
    Mr. Vitiello. I strive always to do the right thing and I 
am committed to do that as well.
    Senator Jones. All right. Thank you, sir. I think that is 
all I have.
    Chairman Johnson. I appreciate that. I also appreciate that 
Senator Peters was willing to stand in as Ranking Member. I 
know he has a hard stop at 11, but do you have another question 
real quick before you need to go?
    Senator Peters. I do. Thank you, Mr. Chairman. Mr. 
Vitiello, just a couple more questions for you. First off, the 
New York Times reported, on October 22, 2018, that the 
administration is weighing some new policies to deter migrant 
families from journeying north, including a new form of family 
separation. News reports have indicated that under a proposal--
it is called a binary choice policy, is what I believe--parents 
would be forced to choose between voluntarily relinquishing 
their children to foster care or to remain imprisoned together 
as a family. The latter option would require parents to waive 
their child's right to be released from detention within 20 
days, related to court cases, as you know.
    So my question to you, are you involved in any way with the 
policy planning that would allow parents to choose between 
family separation or remaining detained together as a family?
    Mr. Vitiello. In early October, as a result of the 
litigation, the idea came out of the judge's order to the 
agencies and the plaintiffs, and so that option or that 
discussion is underway. It is a way for us to meet the 
requirement of the Flores settlement agreement while giving 
people a complete opportunity of due process in immigration 
proceedings.
    Senator Peters. So do you support the proposal for a binary 
choice policy? What are your thoughts on it?
    Mr. Vitiello. It is a way for people to have a due process 
opportunity and remain in custody, and what I have seen over my 
long career is that if people are allowed relief under the law 
then we should do that. That is an opportunity that ICE is 
responsible to give people in that process in front of the 
judge. But if they are not, and they are removed quickly after 
the due process and the safeguard back to their home, we will 
get less traffic. I think that is what is illustrated in the 
Chairman's chart. If we can close the loop on proceedings with 
due process we will get less recidivism at the border. We will 
get less people bringing their children.
    So it is an option. It right now would be in conflict with 
the President's direction to keep families together.
    Senator Peters. But the administration is discussing in.
    Mr. Vitiello. There have been discussions after the judge 
gave that information to both sides in the litigation.
    Senator Peters. Yes, and I think we all agree that we want 
to expedite any of the hearings that folks have. I think that 
is a universal agreement here, that people have the right for 
due process to expedite it. But I am not sure how the fact that 
you give folks a choice between being separated from their 
children or being detained, and then asking them to waive the 
20-day period where they children cannot stay in detention, how 
that is going to accelerate that. There are other issues that 
we would need to deal with, as a Committee, and resources that 
we will talk about, that have judges and others to be able to 
expedite. I am not sure how this policy actually does that.
    And I guess it leads to a question that I have been trying 
to get answered. In addition to how long folks could be 
separated, the other question is how long should a child be 
detained? You responded to Senator Harris's question that you 
had read the information related to how detrimental a child is, 
or the effect on a child when they are detained.
    So my question to you is, how long does ICE believe a child 
should be detained? What is the view of ICE?
    Mr. Vitiello. It is a matter before the court. In other 
contexts, when people are seeking relief or they are going in 
front of immigration proceedings--for instance, an adult male 
from Guatemala, they are out of our custody in less than 2 
months. And so they get their complete due process rights, and 
if they have relief under the law they are out of proceedings 
quickly. They are out of detention faster than that.
    And so when we hold people and remove them after their due 
process opportunity, it will abate the traffic, like we saw in 
2015.
    Senator Peters. The answer is pretty straightforward. You 
still have not answered it. It is just, is there an upper limit 
to how long a child should be detained, in your view?
    Mr. Vitiello. Well, the law gives us upper limits. In this 
discussion, what we are trying to seek is full opportunity in 
the due process, and that requirement, and then if they are not 
subject to relief then they are held only long enough to remove 
them.
    Chairman Johnson. Let me chime in, because this is where 
Congress bears responsibility to determine what this is, and 
this is why we are trying to do, and what I would hope would be 
a nonpartisan basis, look at the problem, address the problem, 
fix the problem, and we need to make those decisions, rather 
than having somebody who is looking to confirm a nomination on 
somebody who is going to have to follow the law that we write. 
And right now the law is broken. It is just broken because we 
have this kind of result.
    So again, I am really hoping that this Committee can work 
on a very nonpartisan basis, fix the law so we have something 
to enforce as opposed to having the administration and courts 
decide all these things for us.
    But with that, Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman, and I want to 
thank both the nominees for coming up here today.
    Mr. Vitiello, it is great to see you as well, again. For 
over three decades you have served our country. You enforced 
the rule of law. Thank you for your service. Thank you for your 
continued desire to protect our country in this incredibly 
important role. I believe you have the leadership and 
experience necessary to be most effective in this position.
    ICE is one of our country's most critical security measures 
and is essential in protecting its citizens. As you mentioned, 
ICE seized nearly 900,000 pounds of narcotics, rescued more 
than 850 children who were victims of sexual exploitation, and 
arrested 11,000 known or suspected gang members, and that was 
in fiscal year 18. The work that ICE does in protecting 
America's security and upholding the rule of law cannot be 
overstated. The fact that some Members of Congress have called 
for the abolishment of ICE is simply outrageous. It is long 
past due that we confirm you.
    Mr. Vitiello, our country is facing an opioid crisis. Let 
me tell you something. In Montana, we are facing a meth 
epidemic. I just literally came from a meeting with some 
individuals in Montana who deal with our foster care system. 
The numbers in our foster care system have tripled, according 
to this group, most recently, as a direct result of meth. The 
vast majority of this devastating drug comes from Mexico. The 
meth of old was home-grown, with meth labs. The meth today is 
coming via cartels, as you know, coming up through Mexico, and 
it is destroying--it is destroying our communities in Montana. 
It is destroying families. These effects are very personal 
While ICE Homeland Security investigations seized 80 pounds of 
meth in fiscal year 18, families and communities are suffering. 
They are being destroyed.
    My question is how will you ensure that rural States, like 
Montana, remain a top priority for ICE, and do you have the 
necessary resources to control the meth epidemic that we are 
seeing right now in Montana?
    Mr. Vitiello. Well, as an operator I will always tell you 
we need more resources, but I appreciate that. I appreciate 
your kind words as well. ICE seized about 60,000 pounds of 
methamphetamine last year with a value of about $475 million. 
In your environment, on the Northern Border, our best 
resources, in the HSI context, is the Border Enforcement 
Security Teams (BEST). So we have a number of those along the 
Northern Border, working directly with partners and colleagues 
in Canada, and then our State and local and tribal partners as 
well. So providing task force funding, overtime for State and 
locals, working complex pathways, identification. How are these 
things coming into the country from Mexico? How are they 
reaching markets in the United States.
    ICE has a wonderful capability, that I am very impressed 
with, on the dark web marketplace. A lot of these things now 
are being imported, either across the border or imported, but 
people start the search for these goods online in the dark web, 
and ICE and HSI has a great capability to combat the 
transactional nature of that, but then also to follow the money 
and the pathways of this illicit methamphetamine into the 
United States.
    Senator Daines. I would like to talk about sanctuary 
jurisdictions, places that violate the laws of our Nation, 
encourage illegal immigration, and compromise the security of 
law-abiding citizens. Recently news broke of an illegal 
immigrant who has been charged with triple murder after being 
released from a county jail in New Jersey. ICE had issued a 
detainer requesting notification prior to his release in order 
to place him in removal proceedings.
    Tragically, the detainer was not honored. This illegal 
immigrant made his way to Missouri, where he took three 
innocent lives. Sanctuary jurisdictions that protect illegal 
immigrants while blatantly refusing to cooperate with Federal 
law enforcement are a direct affront to this country's rule of 
law and puts innocent lives at risk.
    My question, Mr. Vitiello, is how can ICE improve 
cooperation with sanctuary jurisdictions so that the rule of 
law is enforced and more innocent lives are not lost?
    Mr. Vitiello. Yes, it is a very frustrating situation. I 
would like to be in a place where jurisdictions could 
understand the risk that they take when they cannot cooperate 
or cannot honor a detainer. What we can do is be responsive to 
the calls for detainers for those jurisdiction that do do that, 
and then working with State and locals in individual 
jurisdictions to get them to understand what risk they are 
placing on the homeland, and certainly in their individual 
communities.
    I think what you will hear from some jurisdictions, those 
that want to cooperate, some that do cooperate but they do not 
want people to know about it, is that there is some liability 
on their part that they would like to have addressed by 
legislation. And so we have specifics on that, we can get with 
you and your staff on. But I am old enough to remember--I mean, 
100 years ago, when I was an agent on the line, you could hand 
a detainer to a deputy at a road stop and that jurisdiction 
would then honor that detainer when they were finished with the 
pendency of that judicial process for that individual.
    That is where we need to be as a country. We need the 
Federal law to be enforced with the cooperation of State and 
local jurisdictions. It is a risk that the country should not 
have to take.
    Senator Daines. Mr. Vitiello, you talked about the Northern 
Border a bit. You have served over 30 years with Border Patrol, 
and part of that time was spent on the Northern Border. While 
the great majority of border security is focused on the 
Southern Border, and understandably, particularly if you look 
at the meth issue, Mexican meth coming into the United States. 
That is what is affecting Montana.
    Our border with Canada is the longest land boundary between 
any two countries in the world, 545 miles of which is Montana. 
The threats posed on the Northern Border pale in comparison to 
those on our southern, yet transnational criminal organizations 
(TCOs), drug smuggling, terror threats are still present. In 
fact, earlier this year DHS released its Northern Border 
Strategy.
    My question is, in light of these findings and your own 
personal experience, can you speak to how a Northern Border can 
best be secured and how ICE will assist in that mission?
    Mr. Vitiello. So it is our work with the State and locals, 
our partners in Canada, to understand the pathways. Criminal 
organizations, as powerful as they are, are vulnerable when 
they cross the border, when their financial instruments cross 
the border. So what we will continue to do, through HSI and the 
BEST teams, is integrate into those communities, understand 
what the discrete threats are in each of the communities, and 
continue to apply our resources to hold to account those that 
traffic across the border.
    Senator Daines. Thank you. Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Daines.
    Senator Harris, after significant but effective arms-
twisting, Senator Carper has graciously agreed to let you ask a 
question for his round.
    Senator Harris. Senator Carper is indeed a gracious 
gentleman and I appreciate that.
    Senator Carper. OK. I will have to go to the physician's 
office after this to have my arm repaired, but I am happy to do 
it.
    Senator Harris. I appreciate that. Thank you.
    Mr. Vitiello, in December 2017, so last year, I issued a 
directive that reversed a policy that existed before, which 
presumed that pregnant women should not be detained. And my 
question, and I have asked this before of others of your 
colleagues, is since ICE issued--and I have not received a 
response--since ICE issued this directive, how many pregnant 
women have been detained in ICE custody, and have been in ICE 
custody?
    Mr. Vitiello. It is important to know that all females of 
age are tested as they come into our custody, so sometimes we 
are not aware until they are already in ICE custody. So the 
number is very small. I do not have it in front of me, but 
within 12 hours of them coming into our custody they are 
tested, and then once we are aware of the pregnancy then they 
are referred for medical care immediately, and that care is the 
same standard care----
    Senator Harris. Sir, my question is very specific. Since 
ICE issued the directive in December of last year, how many 
pregnant women, to your knowledge, have been detained in ICE 
custody?
    Mr. Vitiello. Let me take that back, and I can give you a 
precise answer. Very few.
    Senator Harris. When will I get that answer, because I have 
asked it before.
    Mr. Vitiello. We can get you that by the end of the day.
    Senator Harris. OK. I appreciate that. And so to follow up, 
I also would like to know how many pregnant women are currently 
detained.
    Mr. Vitiello. I will get that for you.
    Senator Harris. And also I would like a breakdown, which I 
have also asked for before, by trimester, so how many of those 
who are pregnant are in their first, second, or third 
trimester. And since ICE issued this policy there has also been 
a question about what is exactly the policy regarding women in 
their third trimester. Can you tell me what the current policy 
is on that?
    Mr. Vitiello. The very rare circumstance where someone 
would be in custody in their third trimester, it would only be 
for--to effectuate a removal. It would not be for----
    Senator Harris. Is that the policy? What is the policy?
    Mr. Vitiello. The policy recognizes that that is the 
highest risk to the individual----
    Senator Harris. Yes
    Mr. Vitiello [continuing]. And so all safeguards are taken, 
all medical advice rules the day. But if someone is removable 
and we have the opportunity to remove them then they will be 
removed.
    Senator Harris. I am still not clear. What exactly is the 
ICE policy on detaining women in their third trimester of 
pregnancy? Can you give me exactly what that is?
    Mr. Vitiello. The policy is that special care is taken in 
the third trimester, and it is presumed that we would not keep 
anyone in custody. But if they are in custody and we have the 
ability to remove them then we would do that.
    Senator Harris. So the presumption is women in their third 
trimester should not be in custody?
    Mr. Vitiello. It is the highest level of risk.
    Senator Harris. That I am clear about, in terms of the 
risk. But what is the policy?
    Mr. Vitiello. The policy is that you follow the doctor's 
orders and safeguard the lives that are at stake.
    Chairman Johnson. Senator Carper.
    Senator Harris. Sir, I am not finished. Thank you, but I am 
still on this line of questioning.
    Chairman Johnson. I think we let you do one question. There 
has been a series of them, and----
    Senator Harris. Mr. Chairman, other people have had more 
time than I have used right now to follow up on their questions 
and I would like to finish this line of questioning about 
pregnant women being detained in ICE custody.
    Chairman Johnson. You can do that in written, but Senator 
Carper.
    Senator Harris. Let the record please----
    Senator Carper. I will yield one more minute to the 
Senator.
    Senator Harris. I appreciate that. Thank you.
    And regarding Secretary Nielsen, when she was here before, 
she promised this Committee that there would be an assessment 
of medical treatment of pregnant women in detention. I have not 
received a response to that question so I am asking you today, 
has ICE conducted an assessment of the treatment of pregnant 
women in its detention facilities?
    Mr. Vitiello. A specific assessment I am not aware of. 
Obviously if the Secretary ordered that we will make sure you 
get that as well.
    Senator Harris. OK. And so when you follow up, I asked for 
that in May of this year. And then what outside medical 
experts, if any, have ICE engaged in conducting this 
assessment? And I would like documentation provided that shows 
who has been consulted and what they have recommended, and I 
would direct your attention to a letter that you have received, 
or your agency received, in March of this year, from the 
Academic of Pediatrics and the American College of 
Obstetricians and Gynecologists, and the American Academy of 
Family Physicians, that said, very specifically, quote, ``The 
conditions in DHS facilities are not appropriate for pregnant 
women.'' Thank you.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Welcome to both of our witnesses. Thank you 
for being here. Thank you for your service and your willingness 
to serve in these roles.
    Mr. Tischner, I understand you have not been asked a lot of 
questions. That is a good thing, and I will just not ask you a 
lot of questions today, but welcome.
    Mr. Vitiello, thank you so much for spending time with us 
yesterday and being here today. We may want to talk with you 
further after this hearing, if that is possible.
    I think I mentioned to you I am a former Governor, and I 
still think like a Governor. The idea that ICE has a person of 
interest somewhere in Delaware or some other State, that person 
is detained by State and local officials, from my State or 
another State, ICE is notified and my understanding is ICE asks 
the--there is an expectation for ICE to come and take custody 
of the person of interest within a relatively short period of 
time.
    We spend a lot of money in Delaware on corrections, and I 
know we do in other States as well. But give us some idea of 
the period of time after a jurisdiction lets you know at ICE, 
``We have a person that is of interest to you,'' what period of 
time elapses before ICE picks that person up? Meanwhile, 
because the local jurisdiction has to pay for security. They 
have to pay for feeding this person, and that sort of thing, 
medical, meals and all. And so they generally want to get that 
person out of their custody, back to where they belong with 
ICE. How quickly does that happen?
    Mr. Vitiello. Yes, I definitely understand that. We talked 
a little bit earlier about detainers, and the detainers ask for 
us, in ICE, to get a 48-hour notice, presuming that the 
department or the jurisdiction is getting ready to release. And 
so within that timeframe we would mount a response. But in some 
places, given the adequate resources, distances, etc., we would 
do it as quickly as we could.
    Senator Carper. All right. What is ``as quickly as we 
could? ''
    Mr. Vitiello. As fast as we can get someone there. Again, 
it depends on the circumstances, how far things are apart, 
whether we have adequate detention space to take another 
individual into custody, etc.
    Senator Carper. Yes. Well, I am going to ask you to think 
about that, and when we talk again I will ask you to come back 
and revisit that. All right?
    Mr. Vitiello. Very good.
    Senator Carper. Thank you. We talked a bit yesterday about 
why, in Mexico, why are there more Mexicans going back into 
Mexico than there are Mexicans trying to get into the United 
States, undocumented or illegally? And I think we basically 
agreed that the reason why is because, in Mexico, there is more 
hope, more opportunity. There is crime but it is a more safe 
place, by far, than Honduras, Guatemala, El Salvador. And that 
has helped turn things around in terms of movement of Mexicans 
in and out of Mexico and our country.
    I said yesterday, where I live we are raising our families 
from Honduras, Guatemala, and El Salvador. Given what they face 
in terms of danger and lack of opportunity and hope, we would 
be tempted to pull out and release their kids and their 
families to a safer place, and the United States is probably 
the closest, safest place.
    Give us just 1 minute on what we ought to be doing to 
improve the quality of life, to reduce the need for folks who 
live in those countries to abandon everything they have to make 
this long journey to face an uncertain future. Talk us to about 
that. What is going on there and what we can do better.
    Mr. Vitiello. Well, what we are doing in ICE and in the HSI 
context, internationally we have these Transnational Criminal 
Investigative Units and that is an opportunity for us to work 
with local authorities in those countries to train and vet 
their law enforcement officers and then help them guide and 
direct and use their law enforcement resources to improve the 
rule of law in those locations. That is an important facet of 
what we are doing.
    The Secretary, and Secretary Kelly before her, also is 
engaged in the security and prosperity plan, which allows for 
our government to understand the resources that we are putting 
downrange in the Northern Triangle to help improve investment 
opportunities and encourage foreign direct investment in those 
locations.
    Senator Carper. Is that part of the Alliance for 
Prosperity?
    Mr. Vitiello. Yes, sir.
    Senator Carper. OK. All right. How important do you think 
that Alliance for Prosperity is?
    Mr. Vitiello. I think you have to do it all. I think people 
have to have the expectations that their property and their 
safety is well cared for in those locations, and then you have 
to have economic opportunity and hope in those locations as 
well.
    Senator Carper. All right. Mr. Chairman, we have actually a 
lot of interest in that part of the world, and because of our 
leadership of this Committee at one time or the other. We are 
asked to spend a whole lot of money for a law on our border 
with Mexico and I think there are certainly places where a wall 
makes sense and a lot of places where it does not. But I think 
it really makes sense, if you look at what has happened in 
Colombia, 20 years, Colombia has actually turned the country 
around and got people not trying to get out of there to come up 
here, and I think the same thing could happen in the Northern 
Triangle if we are smart about it.
    The last question I have is I am concerned that you may not 
appear to think through the consequences of President Trump's 
family separation policy when you had a role in implementing 
it. President Trump appears determined to continue to implement 
what I think are ill-considered, maybe legally questionable 
immigration policies that use scarce Federal resources without 
making us any safer.
    If confirmed, how would you avoid repeating the errors in 
judgment in planning that allowed the family separation policy 
to occur, and if you would--we do not have a lot of time but 
just give us some specificity.
    Mr. Vitiello. So it was not a family separation policy. It 
was an increased level of prosecution, right? The Department of 
Justice said they would involve resources to give us a zero 
tolerance for people who crossed the border in between the 
ports illegally. And so the lesson learned there is we did 
spend a lot of time in this setting urging Congress to close 
these loopholes, to give us an opportunity to let people have 
their due process rights and then removed when they were not 
eligible for relief under the INA.
    So we would like to have that opportunity, but in the case 
of what did happen, we should have leaned forward more on 
explaining the whole process and being ready for the public 
outcry that occurred.
    Senator Carper. All right. Mr. Chairman, one thing I would 
say, I do not know. You and I have had conversations about 
this, but the idea that folks focused on the Northern 
Triangle--Honduras, Guatemala, El Salvador--would like to get 
out of there and apply for asylum, there is legislation that 
has been introduced--I am co-sponsor and you may be as well--
that would basically allow folks who are seeking asylum to do 
it in their native country at our consulates, our embassy, and 
not have to get on a 1,000-mile journey with an uncertain 
future. So that is something, I think, that has a lot of merit.
    All right. Thank you very much, and, Mr. Tischner, I 
thought you were excellent in your responses today. Thank you.
    Chairman Johnson. Thank you, Senator Carper, and again, I 
think the goal we all share is to make that a legal process.
    Mr. Tischner, like Senator Carper said, do not feel bad 
about being left out. Feel relieved.
    Just real quick, I understand that your position is 
incredibly important. We have a project in Milwaukee called the 
Joseph Project where we have are working with an inner-city 
church. We have a pastor, Pastor Jerome Smith, a wonderful man, 
who identifies people formerly incarcerated, former drug and 
alcohol abusers, that have reached the stage in life where they 
want to turn it around. And so they are able to transform their 
life through work.
    And all we do--it is a 4-day, 3-hour-a-day training program 
that just instills the necessity to commit themselves to turn 
their lives around, commit themselves to succeed, as well as 
have the right kind of attitude, on the job, in the application 
process, in the interview process, and every day on the job.
    So I am just going to throw it out there to you. If you 
want to see that in action, I think it would be valuable for 
you, and you are always welcome to come take a look at one of 
our sessions at the Joseph Project and talk to people in terms 
of how it has worked. But give you an opportunity to kind of 
respond to that or say something in this hearing.
    Mr. Tischner. Thank you, Chairman Johnson. I would 
appreciate the opportunity to do that. I know that locally 
there are faith-based organizations that are also very helpful 
in giving opportunities to individuals who have been 
incarcerated in the past--and who have had tough lives. Also, I 
do think that removing the impediment of unemployment is one of 
many that does make individuals succeed and come back to be 
productive and contributing members to the local community. 
Chairman Johnson I appreciate the offer.
    Chairman Johnson. The dignity of work is kind of hard to 
replace, in terms of people transforming their lives.
    So again, I want to thank the nominees for your past 
service, for your willingness to serve, your families for their 
support of you.
    The nominees have made financial disclosures and provided 
responses to biographical and pre-hearing questions submitted 
by the Committee.\1\ Without objection, this information will 
be made part of the hearing record,\2\ with the exception of 
the financial data, which are on file and available for public 
inspection in the Committee office.
---------------------------------------------------------------------------
    \1\ The information of Mr. Vitiello appears in the Appendix on page 
36.
    \2\ The information of Mr. Tischner appears in the Appendix on page 
164.
---------------------------------------------------------------------------
    The hearing record will remain open until noon tomorrow, 
November 16, for the submission of statements and questions for 
the record.
    This hearing is adjourned.
    [Whereupon, at 11:27 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
